CERTIFICATE OF SERVICE
I, Bianca Becker, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Burt W.
Newsome and Newsome Law, LLC v. Clark A. Cooper,
Balch & Bingham LLP, Claiborne P. Seier, and John F.
Bullock Jr., was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies via Next Day and e-mail
service to the following parties listed below, this 17th
day of July, 2021:
Robert M. Ronnlund
Scott, Sullivan, Streetman & Fox, P.C.
31 Inverness Center Parkway, Suite 500
Birmingham, Alabama 35242
205-967-9676
ronnlund@sssandf.com
Counsel for Respondent Claiborne Porter Seier
Andrew P. Campbell
Carson M. Kirby
Campbell Partners, LLC
505 20th Street North, Suite 1600
Birmingham, AL 35203
205-224-0750
andy@campbellpartnerslaw.com
cason@cambellpartnerslaw.com
Counsel for Respondents Balch & Bingham and
Clark A. Cooper

Candace B. Crenshaw
James E. Hill, Jr.
Joel P. Watson
Hill, Gossett, Kemp & Hufford, P.C.
2603 Moody Parkway, Suite 200
Moody, AL 35004
205-640-2000
cbc@hhglawgroup.com
jimhill@stclairlawgroup.com
joelwatson@stclairgroup.com
Counsel for Respondent John F. Bullock, Jr.
Don Gottier
195 Whippoorwill Lane
Calera, AL 35040
Respondent Pro Se
Alexandra Siskopoulos
Counsel of Record
Siskopoulos Law Firm, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Petitioners

All parties required to be served have been
served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 17, 2021.

4~~dfL

Bianca Becker
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

,

% t ~ (!OJ {
Jutv~ .~

Notary Public
[seal]

Notary Public, Stall al ONG
My Comrnlslian Expires
r:ebruary 14, 2023

